   DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


      Irregularities in the Development of the
    Transportation Security Operations Center




      Office of Inspections and Special Reviews

OIG-05-18                                March 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by the OIG as
part of its DHS oversight responsibilities to promote economy, effectiveness, and efficiency within
the department.

This report addresses the management controls and procurement procedures used during the
development of the Transportation Security Operations Center. It is based on interviews with
Transportation Security Administration (TSA) employees and contractors involved in the project, as
well as a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Acting Inspector General
Contents


Introduction........................................................................................................................................... 3

Results in Brief ..................................................................................................................................... 4

Background ........................................................................................................................................... 8

Purpose, Scope, and Methodology...................................................................................................... 10

Findings .............................................................................................................................................. 11

     Management Controls................................................................................................................... 11

     Acquisition of Art, Plants, and Miscellaneous Office Supplies.................................................... 19

     Use of Purchase Cards .................................................................................................................. 21

     Questions of Impartiality .............................................................................................................. 26

     Facility Enhancements .................................................................................................................. 27

     Recommendations......................................................................................................................... 32


Appendices

     Appendix A:             Management Comments...................................................................................... 33
     Appendix B:             OIG Evaluation of Management Comments ........................................................57
     Appendix C:             Recommendations ............................................................................................... 61
     Appendix D:             Major Contributors to this Report ....................................................................... 62
     Appendix E:             Report Distribution.............................................................................................. 63




                       Irregularities in the Development of the Transportation Security Operations Center                                        Page 1
Contents

Abbreviations
     AMS        Acquisition Management System
     ATSA       Aviation and Transportation Security Act
     CAPPS II   Computer Assisted Passenger Pre-screening System, Second Generation
     CFR        Code of Federal Regulations
     CMO        Crisis Management Operations
     DHS        Department of Homeland Security
     FAA        Federal Aviation Administration
     FAMS       Federal Air Marshal Service
     FPS        Federal Protective Service
     GAO        Government Accountability Office
     GSA        General Services Administration
     OIAPR      Office of Internal Affairs and Program Review
     OIG        Office of Inspector General
     PCPM       Purchase Card Program Manager
     P-card     Purchase Card
     SOCD       Systems Operations Control Division
     TSA        Transportation Security Administration
     TSOC       Transportation Security Operations Center
     USC        United States Code




           Irregularities in the Development of the Transportation Security Operations Center   Page 2
OIG
Department of Homeland Security
Office of Inspector General



Introduction
                           In response to the September 11, 2001, terrorist attacks in the United States
                           and to defend against potential future attacks, Congress enacted the Aviation
                           and Transportation Security Act (ATSA),1 which established TSA. In
                           February 2002, TSA officially assumed responsibility for civil aviation
                           security functions. One step that TSA took to fulfill its mission was to create a
                           crisis management operations (CMO) directorate to prevent and respond to
                           threats against all modes of transportation. TSA assigned a CMO employee to
                           manage the project of locating a building, securing the lease, and developing
                           the space to house the CMO. The project manager located a space to share
                           with the Federal Air Marshal Service (FAMS), which sought a location for its
                           Systems Operations Control Division (SOCD). In February 2003, TSA leased
                           an undeveloped office building to house both the CMO and the SOCD. At the
                           time, the building was simply a shell without interior walls, floors, ceilings,
                           electrical wiring, furniture, or equipment.

                           The project to develop and outfit the building was completed in July 2003.2
                           The building has 55 offices, more than 150 workstations, two watch floors,
                           twelve conference rooms, seven kitchens, and a fitness center. The CMO’s
                           space, which is known as the Transportation Security Operations Center
                           (TSOC), 3 has 30 TSA employees and approximately 29 contract employees.
                           The SOCD has 49 employees and approximately 28 contract employees.

                           In November 2003, TSA’s office of internal affairs and program review
                           (OIAPR) began a review of suspicious purchases that were made during the
                           development of the building. OIAPR uncovered improper use of purchase
                           cards (P-card); a $500,000 expenditure for artwork, silk plants, and
                           miscellaneous supplies; and, unethical and possibly illegal activities by TSOC
                           employees. In May 2004, OIAPR reported its findings to us for further
                           review.




1
  Public Law No. 107-71.
2
  The “project” as used in this report includes planning, leasing, constructing, and equipping the building that houses the
SOCD and the CMO.
3
  In its conceptual stage, the operations center was originally called the Transportation Security Coordination Center.

                  Irregularities in the Development of the Transportation Security Operations Center                 Page 3
                          The scope of our review included:

                              •    An examination of the construction and purchases funded through the
                                   facility lease.

                              •    The P-card purchases of equipment and supplies for the building.

                              •    The management and procurement processes that supported the
                                   building’s acquisition, construction, and outfitting.

                              •    The adequacy of TSA’s management controls to ensure that purchases
                                   were made according to applicable procurement rules and regulations.

Results in Brief
                          Management Controls

                          Breakdowns in management controls left the project vulnerable to waste and
                          abuse.4 The waste and abuse reported here is attributable to wasteful or
                          inappropriate decision-making by individuals who operated with unchecked
                          autonomy that resulted from the determination to complete the project within
                          90 days. This was a self-imposed deadline. Senior managers, concerned about
                          delaying completion, overrode protests by subordinates, which allowed the
                          project manager to circumvent those rules and regulations.

                          The acquisition policy that governs TSA encourages management to involve
                          procurement personnel early in the acquisition process.5 Despite that policy,
                          the project manager, the chief operating officer, and the deputy administrator,
                          did not involve TSA’s procurement division in the initial phases of the TSOC
                          project. Procurement managers6 were not included in developing requirements
                          to define the TSOC’s needs,7 selecting a contract vehicle, selecting a site, or
                          planning office space allotment, in violation of TSA’s acquisition policy.
                          When we asked for supporting documentation normally required during the
                          planning stages of an acquisition, one TSA employee said that such

4
  The General Accounting Office (GAO) Standards for Internal Control in the Federal Government, GAO/AIMD-00-
21.3.1 (Washington, D.C., November 1999) discusses management’s key role in demonstrating and maintaining an
organization’s integrity and ethical values, especially in setting and maintaining the organization’s ethical tone,
providing guidance for proper behavior, and removing temptations for unethical behavior.
5
  TSA follows the Federal Aviation Administration’s Acquisition Management System policy to acquire or procure
goods, services, and real estate.
6
  As used in this report, TSA procurement managers include personnel from TSA’s real estate services office, the office
of acquisition, the chief administrative officer, and the chief systems support officer.
7
  The requirements would have defined the scope of the project and the tenant improvements or reimbursables associated
with the project. They would be used for guidance in selecting and developing a site, and forming a budget and a
schedule for completing the project.

                 Irregularities in the Development of the Transportation Security Operations Center              Page 4
                            documentation had not been developed; others said they were unable to locate
                            the paperwork. For example, though requested, TSA did not produce
                            paperwork that documented the process or justified the project’s $19 million
                            budget. The omission of such paperwork contravenes TSA’s acquisition
                            policy, which is set forth in the Acquisition Management System (AMS). The
                            AMS requires documentation that explains and justifies procurements and
                            business decisions.8

                            Efforts of procurement managers to exercise control and oversight were
                            quashed by the deputy administrator and the chief operating officer. When
                            procurement managers notified senior managers that the project manager was
                            violating procurement policies, the deputy administrator and chief operating
                            officer admonished them to support the project manager. Out of concern that
                            they remained responsible for the project’s integrity, but could not enforce
                            procedures to control it, procurement managers sought to shift responsibility
                            for procurement oversight to a project oversight board. The deputy
                            administrator approved the board and its charter, which included the
                            responsibility to ensure that project activities were conducted within
                            applicable procurement regulations and policies. The board first convened in
                            April 2003 and met regularly throughout the construction of the building.
                            Despite its charter, the board did not provide control and oversight to ensure
                            adherence to applicable procurement regulations and policy.

                            With the oversight board in place and under the deputy administrator’s
                            direction to support the project manager, the director of acquisitions
                            negotiated what was called a “hybrid” contracting officer authority with the
                            project manager in April 2003. Under the hybrid arrangement, the real estate
                            contracting officer maintained the authority to ensure competition for
                            purchases, but abandoned the responsibility to review invoices that the project
                            manager submitted, signing each without validating the expenses. To
                            accelerate processing, the real estate contracting officer would sign all forms
                            submitted to him within hours; if he were unavailable, the director of
                            acquisitions would sign for him. There was no policy or regulation granting
                            TSA the authority to create hybrid contracting officer authority. Additionally,
                            the project manager did not have contracting officer or contracting officer’s
                            technical representative (COTR) training.

                            Senior management’s failure to enforce procurement regulations and policy,
                            as well as the procurement managers’ acquiescence to senior management’s
                            pressure, created a culture in which procurement procedures were abandoned,
                            ethical norms slipped, and fiscal responsibility was neglected. This
                            environment fostered improper or questionable purchases and construction


8
    AMS § 5.3.10.

                    Irregularities in the Development of the Transportation Security Operations Center   Page 5
        decisions, as well as disregard for the ethical duty of impartiality, by the
        project manager and others involved with the project.

        Improper Purchases

        The project manager and the facility operating officer improperly purchased
        decorative and miscellaneous items totaling $500,000, most of which was
        spent on furnishing the facility with art and silk plants. They charged the
        purchase to the construction contract and kept it hidden from the real estate
        contracting officer responsible for that contract. Representatives from the
        vendor, a tool company who supplied the art and silk flowers, said that when
        the tool company submitted a single invoice describing the goods as
        “enhancements,” the facility operations officer ordered the company to retract
        the invoice and reissue the amount in three separate invoices with a single
        descriptive line, “equipment and tools,” thus concealing the true nature of the
        charges. The tool company had to “manually construct” the invoices because
        its accounting system could not modify invoices once they had been issued.
        From the three invoices, $252,392 was attributable to the purchase of artwork;
        $29,032 to an art consultant and an assistant; $30,085 to the purchase of silk
        plants; and, $13,861 to the acquisition of lamps and miscellaneous equipment.
        The vendor added a 20% markup of $65,074 and a credit for future purchases
        of $26,243. In addition to these charges, the vendor received $83,313 in
        overpayments because the facility operations officer insisted that the vendor
        submit an invoice before final costs had been determined. The facility
        operations officer never reconciled the final costs against the estimate or
        attempted to recoup the over payment.

        The project manager, facility operations officer, and a TSOC employee
        routinely violated TSA purchase card (P-card) policies. In contravention of
        P-card policy, they purchased furniture and personal items, such as loveseats,
        armoires, leather briefcases, and coffee pots. They discussed with the vendor
        ways to circumvent the rule that forbids purchases exceeding a $2,500 limit
        and that bans “split transactions,” a method for concealing purchases over
        $2,500 by splitting them into several credit card transactions. The P-cards
        were used in ten purchases that ranged in value from $3,350 to $47,449. This
        required 58 separate credit card transactions to complete. Also, the
        P-card holders failed to maintain logs recording all transactions as required by
        federal P-card regulations. Last, the project manager, the approving official
        for the P-card holders, failed to monitor purchases as required by TSA policy.

        Fiduciary Violations

        The company from whom the facility operations officer purchased the art, silk
        plants, and miscellaneous items, as well as to whom he directed the majority
        of P-card purchases, was a tool company that had never sold such

Irregularities in the Development of the Transportation Security Operations Center     Page 6
                          merchandise. The facility operations officer had a prior business and personal
                          relationship with the tool company and its owners. Within weeks of his
                          resignation from TSA, the facility operations officer started a new business
                          with the tool company’s owners. He became an officer and employee of the
                          new company, receiving a salary increase of approximately $34,000 as well as
                          stock shares.

                          Federal and TSA ethical guidelines require employees to be impartial in their
                          dealings with other entities, not use their position for private gain, and avoid
                          the appearance of ethical violations. 9 The facility operations officer may have
                          breached the requirement to avoid the appearance of ethical violations by
                          directing purchases to the tool company with which he had a prior relationship
                          and by later securing a position with the tool company’s owners at a
                          significant increase in pay. He may have violated the requirements mandating
                          impartiality and prohibiting use of a position for private gain, too.

                          Facility Enhancements

                          The project manager made procurement and construction decisions that
                          appear wasteful. For example, the project manager designed offices and
                          workstations that were larger than TSA or federal standards permit; provided
                          television monitors with commercial cable service in 45 of 55 offices;
                          equipped seven kitchens with numerous kitchen appliances, such as
                          refrigerators, microwave ovens, icemakers, and dishwashers; and developed a
                          4,200 square-foot fitness center with a towel laundry service for the 79 federal
                          employees located there. There was no documented justification or
                          cost/benefit analysis supporting these expenditures. The real estate contracting
                          officer objected to some of the amenities but was overridden by the project
                          manager.

                          Recommendations

                          Our recommendations emphasize the need for TSA to adhere to disciplined
                          decision-making processes to ensure that projects are implemented at
                          acceptable costs and that procurement practices are consistent with statutes,
                          regulations, and rules. To improve its management controls and program
                          oversight, we are recommending that TSA:

                          Recommendation 1: Follow its own policy as well as applicable federal
                          regulations when acquiring real estate and procuring goods and services.



9
 Key rules for federal employee conduct are contained in Standards of Ethical Conduct for Employees in the Executive
Branch, 5 C.F.R. § 2635, and more particularly, Financial Conflicts of Interests, 5 C.F.R. § 2635 part D.

                 Irregularities in the Development of the Transportation Security Operations Center            Page 7
                            Recommendation 2: Ensure that all contracting officers and contracting
                            officers’ technical representatives receive training appropriate for those
                            positions.

                            Recommendation 3: Recover the $83,313 overpayment to the tool company
                            and such other sums for which TSA may have a legal remedy.

Background
                            In June 2002, TSA established the Aviation Operations, CMO. Since TSA did
                            not have an operations center, the CMO team worked out of space borrowed
                            from the Federal Aviation Administration (FAA) headquarters’ operations
                            center, relying on cellular phones and laptop computers to conduct their work.
                            CMO managers were concerned that inadequate space and technical support
                            would hamper its ability to achieve command and control over aviation
                            security incidents. TSA determined that the CMO needed its own operations
                            center and supporting resources. As a result, TSA senior leadership
                            developed the TSOC concept and adopted an accelerated project completion
                            timeline of 90 days for completing construction. TSA named one of the CMO
                            managers as the project manager for the effort. Although his supervisor was
                            the CMO director, the project manager reported directly to the deputy
                            administrator and chief operating officer on TSOC project matters. The
                            project manager began searching for a site in the fall of 2002.10

                            Coincidentally, as the CMO was looking for suitable space for its operations
                            center in the autumn of 2002, FAMS, which at that time was a component of
                            the FAA, identified a relocation facility for its SOCD. The facility’s drawback
                            was that it had 110,000 square feet, more space than FAMS needed. FAMS
                            also had security concerns about sharing the facility with a non-government
                            entity. In November 2002, FAMS was transferred to TSA. It is unclear when
                            the project manager became aware of FAMS’ relocation plans, but by
                            December 2002, TSA had decided to co-locate the TSOC at the facility
                            chosen by FAMS for its SOCD operations.11 The CMO project manager
                            became the manager for developing the facility for both the TSOC and the
                            SOCD.

                            At the time, the facility was an empty shell, requiring construction of interior
                            walls, floors, ceilings, and electrical wiring. From December 2002 through the
                            spring of 2003, the project manager worked with the proposed construction

10
   We could not establish the dates of the initial planning activities, such as conducting a survey, advertising the need, or
reviewing specific sites, or whether those routine acquisition activities were actually conducted, because documentation
of those efforts was not maintained.
11
   The first space plans for the facility detailing the layout for the CMO and the FAMS SOCD were completed on
December 12, 2002.

                  Irregularities in the Development of the Transportation Security Operations Center                   Page 8
                          management company and FAMS representatives to design the floor space
                          plan and to discuss cost estimates for the TSOC and SOCD. Because the
                          TSOC and SOCD together did not require the full 110,000 feet of space, TSA
                          solicited other federal agencies and programs to consider sharing the facility.
                          TSA considered co-locating its Computer Assisted Passenger Prescreening
                          System (CAPPS II) program to the facility, but eventually decided not to do
                          so. DHS officials discussed co-locating the department’s operations center at
                          the facility, too. However, due to concerns about the facility’s physical
                          security, DHS withdrew its consideration.12 TSA developed the facility for
                          only the TSOC and SOCD, leaving approximately 13,500 square feet
                          undeveloped.

                          TSA signed the lease for the facility in February 2003 to accommodate
                          FAMS’ SOCD and the TSOC. In addition to obligating the government to the
                          rental rate, the lease provided $5,404,947 in credits, which TSA could spend
                          on developing the building’s interior and pay back on an amortized basis over
                          the life of the lease. A March 26, 2003, modification to the lease adjusted the
                          total amount of credit down by $90,047, bringing the total in available credit
                          to $5,314,900. TSA planned to use the credits, as well as an additional
                          $7,247,630, to complete the construction through a management company. An
                          additional $11,052,370 was budgeted for purchasing furniture, establishing
                          information technology functionality, and providing contractual program
                          management support. The project budget was finalized in May 2003, with
                          total project funding of $23,614,900, which included the lessor’s credits of
                          $5,314,900 and a TSA direct contribution of $18,300,000.13 Construction
                          began in April 2003, and the facility was completed, but for minor repairs, in
                          97 days. It opened in July 2003.

                          Thirty TSOC and 49 FAMS federal employees, as well as approximately 57
                          contract employees, were stationed in the facility. Together, the TSOC and
                          SOCD included 55 offices, more than 150 workstations, two watch floors, 12
                          conference rooms, seven kitchens, and a fitness center.

                          In September 2003, after the TSOC/SOCD became operational, TSA issued P-
                          cards to the facility operations officer and another employee to purchase
                          office supplies. In the same month, TSA’s purchase card program manager
                          (PCPM) began to notice anomalies in the P-card transactions.14 The PCPM
                          notified the approving official and P-card holders of the problems and offered
                          to conduct additional training on proper P-card procedures and policy. In

12
   Funding for security upgrades was not provided initially. However, prior to the completion of this report, DHS Office
of Security installed a complete security package at the TSOC to the Level IV standard.
13
   The $23,614,900 funded development of FAMS’ SOCD and the TSOC. The project’s budget was finalized
approximately one month after project construction began.
14
   The P-card holders were attempting to use the cards with merchants that were prohibited by TSA P-card policy, but
were blocked from completing the transactions.

                  Irregularities in the Development of the Transportation Security Operations Center               Page 9
                           November 2003, the PCPM conducted a review of unusual P-card transactions
                           made by TSOC personnel. The PCPM flagged several transactions as possible
                           split purchases and referred the P-card account to TSA’s OIAPR for
                           investigation. The OIAPR investigation not only documented numerous
                           instances of split purchase card activity and other irregular procurement
                           practices, but uncovered an improper expenditure of $500,000 and possible
                           unethical conduct by personnel involved in the project. OIAPR referred the
                           case to our office for further review.

                           In acquiring and developing the facility, TSA was governed by the FAA’s
                           AMS. The project’s development also was subject to General Service
                           Administration (GSA), Federal Property Management, and Federal Records
                           Management rules and regulations, as well as Comptroller General decisions
                           regarding application of those regulations. Those authorities provided a
                           framework for guiding the acquisition process and for governing the
                           suitability of purchases.

Purpose, Scope, and Methodology
                           The objectives of our review were to determine whether:

                               •    Adequate controls were established for the P-card holders.

                               •    Internal controls existed to govern the project’s procurement and
                                    payment processes.

                               •    Internal controls provided reasonable assurances that proper
                                    procurement regulations were followed.

                           We interviewed more than 40 managers, program officials, and contractors
                           who supported the project. The majority of our fieldwork was conducted at
                           TSA headquarters. To gain a better understanding of the project, we toured the
                           facility and conducted numerous on-site interviews with those involved in
                           managing the construction of the project. We interviewed the design
                           consultant who was hired by the vendor to purchase and install the facility’s
                           artwork, and the vendor, by proxy,15 who was involved in the questionable
                           purchase activities.



15
  After the initial investigation by OIAPR, the vendor retained a law firm to represent its interests. Our site visit was
coordinated with the vendor’s legal representatives and scheduled a month prior to our inspectors’ arrival at the vendor’s
headquarters. Once our inspectors arrived at the vendor’s business, the vendor’s attorneys refused to allow us to
interview the owners of the company or its employees. However, the owners and employees were permitted to provide
information and documentation by proxy through the attorneys.

                  Irregularities in the Development of the Transportation Security Operations Center               Page 10
                           We reviewed documentation pertinent to the project’s acquisition and
                           procurement processes, including personnel records, emails, written
                           correspondence, internal memoranda, procurement requests, construction
                           change orders, notices to proceed, building space plans, construction blue
                           prints, and budget sheets. We also reviewed federal regulations such as the
                           Federal Acquisition Regulations, the AMS, the Federal Management
                           Regulations, Comptroller General decisions, the Federal Records
                           Management Act, the Government Accountability Office’s (GAO) Principles
                           of Federal Appropriations Law (the “Redbook”), and TSA internal policy and
                           directives related to acquiring and furnishing office space.

                           We conducted our review between May 2004 and December 2004 under the
                           authority of the Inspector General Act of 1978, as amended, and according to
                           the Quality Standards for Inspections issued by the President’s Council on
                           Integrity and Efficiency.

Findings
                            TSA’s deputy administrator and the project manager adopted an accelerated
                            90-day deadline for completing the project.16 Although TSA’s need for an
                            adequate operation center was critically important given the uncertainty of
                            future terrorist events, TSA did not provide evidence that the decision to
                            accelerate construction arose from a formal, disciplined analysis of
                            requirements and scheduling priorities. Rather, the project manager consulted
                            with the real estate owner’s construction management company and
                            subcontractors to determine a project schedule. The resultant schedule
                            allowed 150 days for completing the TSOC and SOCD with a provision for
                            accelerating completion of the project to 90 days at additional cost to the
                            government. This analysis was conducted primarily by the real estate
                            owner’s construction contractors. Neither the TSA real estate office nor the
                            contracting officer was included in the meetings between the project manager
                            and construction contractors. They were not provided with a copy of the
                            proposed schedule or given the opportunity to comment on it.

                           The initial planning of the TSOC was marked by an absence of written plans
                           or specifications.17 In addition to the omission of a justification for the 90-day
                           deadline was the absence of a discussion of the cost or other consequences of
                           an accelerated schedule.


16
   The construction management company was to provide “beneficial occupancy” within the 90-day deadline, which
meant that the building was to be ready for occupancy by the end of that period. Minor repairs, or “punch list” tasks,
could be finished after the deadline.
17
   We note that this was a time in which TSA also was completing the exceptionally difficult tasks for hiring, training,
and deploying approximately 55,600 passenger and baggage screeners and baggage screening equipment to meet
Congressionally imposed deadlines.

                  Irregularities in the Development of the Transportation Security Operations Center               Page 11
Management Controls
                          TSA’s office of acquisitions is responsible for administering contracts and
                          awarding business agreements in support of the TSA mission. In addition, it
                          serves as an advisor for developing acquisition strategies, and it establishes
                          and enforces acquisition policies and processes. The office of acquisitions
                          derives its authority from the FAA’s AMS, as well as other applicable federal
                          regulations.

                          Seven TSA employees and two private contractors who were involved in this
                          project said that TSA disregarded procurement procedures in order to achieve
                          the 90-day deadline. One interviewee said the project manager claimed that
                          the deputy administrator told him, “I’ll give you the money, just do it,” and
                          authorized the expenditure of funds despite the absence of available or
                          budgeted funding.18 Another person said that TSA’s operations office had
                          subjugated the acquisitions office with an attitude of “get it done - it doesn’t
                          matter how!”19 Another person said, “The culture at TSA is that the mission
                          supersedes the process.” With regard to the procurement managers’ efforts to
                          impose routine procurement procedures, the same person said, “We tried but
                          our hands were tied,” and “…Acquisitions had an impossible task. We had the
                          responsibility, but not the authority to manage the project.” To complete the
                          project within 90 days, the deputy administrator allowed the project manager
                          to control the project, which often included preempting procurement
                          procedures and overriding the authority of procurement managers.

                          The AMS encourages agencies to involve real estate acquisition personnel
                          early in the real estate acquisition planning process.20 Additionally, the AMS
                          instructs contracting officers to be involved in reviewing requirements,
                          developing administrative space standards, and determining the appropriate
                          method of procurement.21 TSA’s real estate procurement managers were not
                          invited to assist in the project until December 2002, after the procurement
                          method had been determined, the site had been selected, and space planning
                          was underway.22 The real estate contracting officer said, “the deal had already
                          been cooked.” Requirements for the TSOC, such as financial limits23 and

18
   The Deputy Administrator said that he did not remember making that statement and doubted that he would have.
19
   The Deputy Administrator said that he told the procurement managers and the project manager to find ways to shorten
the processes. He said that when a question arose regarding compliance, he always instructed his subordinates to obey
the law.
20
   AMS § 5.3.
21
   AMS § 5.3.2.
22
   FAMS included its procurement managers in the initial SOCD planning until project management shifted to TSA.
23
   The only documentation that TSA produced that could justify the budget was a construction company’s cost estimate
for developing the facility. However, the deputy administrator recalled a presentation to OMB in which the project
funding was approved. Although he suggested a copy of that submission might have been kept at FAMS, we were unable
to locate it in follow-up conversations with FAMS officials.

                 Irregularities in the Development of the Transportation Security Operations Center           Page 12
                           infrastructure needs, were never developed, an omission that resulted in
                           questionable facility enhancement decisions and purchases.24 None of the
                           initial procedures for acquiring the TSOC, such as conducting site surveys or
                           marketing the need for new space, was documented, in violation of the AMS
                           policy that requires justification and explanation for business decisions and
                           procurement actions.25 The real estate contracting officer never received the
                           space plans or the construction schedules from which to monitor the project’s
                           progress.

                           Once the procurement managers joined the project, consternation arose when
                           they attempted to follow routine procurement procedures. Accordingly, on
                           February 6, 2003, the chief administrative officer convened a meeting with
                           procurement managers, the project manager, and others to clarify the parties’
                           roles and responsibilities during the project. The chief administrative officer
                           referred to that meeting as a “disaster.” Commenting further, the chief
                           administrative officer said that the project manager became angry and called
                           the procurement managers “stupid” and referred to them as “obstructionists.”
                           The project manager refused to adopt traditional relationships and procedures
                           normal to a real estate acquisition and construction. The chief administrative
                           officer said that, because he was angry at the project manager’s words and
                           demeanor, he complained to the deputy director. According to the chief
                           administrative officer, the deputy director told him to support the project
                           manager and not to be an “obstructionist.”26 On February 12, 2003, the deputy
                           director informed the acquisitions office director that it was “absolutely
                           critical” for the project to be completed by the deadline.27

                           Throughout February, issues arose because the project manager preempted the
                           real estate contracting officer’s role and responsibilities by negotiating
                           agreements with contractors without the contracting officer’s approval.
                           Because the contracting officer maintained responsibility for signing the
                           agreements, the deputy administrator approved of the practice as one that
                           would speed progress without violating the law. In one instance, the project
                           manager directed the construction management firm to prepare an estimate for
                           developing additional space. Upon learning of this, the real estate contracting
                           officer sent an email message to the project manager requesting him to work
                           with the procurement managers to document the new space needs and to allow
                           the contracting officer to broach such issues with the contractor. The project

24
   We did receive a draft document entitled, “Draft Working Document, TSA Command Center (TSACC)
Requirements,” dated July 8, 2002. This document listed, in broad terms, operational capabilities, information
technology needs, as well as schedule milestones, with an occupancy estimated to occur in September 2003. It did not
contain the details necessary to guide site selection, such as physical security, space, or budgetary requirements.
25
   AMS § 5.3.10.
26
   The deputy administrator did not recall that conversation.
27
   The deputy administrator did not remember that conversation specifically, but does recall telling the acquisitions office
director that the team had to “pull out all of the stops” to complete the project.

                  Irregularities in the Development of the Transportation Security Operations Center                Page 13
        manager replied: “all that administrative stuff will crush the timeline…. I
        know that workarounds make your life miserable, but there is no choice. We
        will not do anything illegal, but I will stretch the policies and bureaucracy to
        their absolute limits.”

        Again, the project manager usurped the real estate contracting officer’s
        authority without repercussion when he began negotiating a contract
        modification to the lease without involving the real estate contracting officer.
        The project manager negotiated with the construction management company
        to change the lease’s fee structure to the lessor’s favor. When the procurement
        managers learned of the negotiation, they advised against changing the lease
        because it would be disadvantageous to the government. Although the details
        of the proposal are complex and eventually were compromised, the following
        March 14, 2003, email from the acquisition office director to the chief systems
        support officer is illustrative of the nature of the debate:

                  We have been asked by [the project manager] on several
                  occasions to renegotiate the lease and raise the fee cap. We
                  were asked by the lessor to reconsider the fee in February.
                  We met with the lessor's representative, [construction
                  management company], listened to their position, and
                  determined to make no change to the current lease.
                                          * * *
                  [W]e consulted with our outside legal counsel on this issue.
                  They strongly advised against renegotiating only one lease
                  term.
                                          * * *
                  So our position is to tell [the project manager] we don’t need
                  a meeting because there is nothing to discuss. As soon as we
                  do that, [the deputy administrator], and then you, will get a
                  call I’m sure.

        Additionally, the project manager initiated discussions with the construction
        management company to develop a proposal to accelerate construction in
        order to complete the building within 90 days. The contracting officer and
        other procurement managers objected, based on their knowledge that
        accelerated construction often brings considerably more expensive, time-
        consuming problems, without a significant gain in the construction schedule.
        They argued that any advantages accelerated construction might bring would
        not justify the substantially increased costs. Instead of accepting the
        contracting officer’s authority to make such determinations, the project
        manager took the issue to the chief operating officer, who apparently agreed
        with the project manager. It appears that TSA paid either an additional
        $400,000 or $600,000 to substantially complete the project 30 days in advance


Irregularities in the Development of the Transportation Security Operations Center   Page 14
                          of the original schedule. 28 TSA has been unable to locate documentation that
                          confirms the cost, discusses cost and benefit considerations, or authorizes
                          funds for the accelerated construction effort. Additionally, the lease should
                          have been amended to reflect the change to an accelerated schedule. TSA
                          could only produce a lease modification that mentioned a schedule change
                          outlined in an attachment, but the attachment specifying the details was
                          missing.29

                          Concerned about the legality and appropriateness of the actions taken by the
                          project manager and fearing an audit, in mid-February 2003, some
                          procurement managers drafted a delegation memo transferring contracting
                          officer authority to the project manager. They reasoned that if they could not
                          control the project, they should not bear the responsibility for it. The deputy
                          administrator refused to sign the delegation memorandum because the project
                          manager did not have a contracting officer’s warrant or the requisite training
                          for that responsibility. The deputy administrator and others said that the
                          project manager was the COTR for the project, despite the fact that the project
                          manager had no training for that position.30

                          In March 2003, a contract employee who provided the project manager with
                          program management support was removed from the project for being an
                          “obstructionist” and uncooperative, according to the project manager. Others,
                          who worked with the contract employee, said that she was removed for
                          insisting that acquisition rules be followed. Later, on April 7, 2003, the real
                          estate contracting officer was removed at the chief operating officer’s request.
                          The chief operating officer cited poor response time and poor understanding
                          of the project as reasons for the real estate contracting officer’s dismissal. The
                          procurement managers said that the contracting officer was removed because
                          she too attempted to follow regulations and procedures, which necessarily
                          slowed activities.

                          The procurement managers attempted again to be released of responsibility for
                          the project because they feared that their warrants were in jeopardy due to
                          their inability to control the project’s irregular activities. They modified their
                          original delegation memorandum to formally establish an oversight board that
                          would have authority and responsibility for the project.31 On April 7, 2003,
28
   The $400,000 figure was taken from a schedule provided by the construction management company. However,
according to an email message from the TSOC project manager, the accelerated construction costs were $600,000.
29
   TSA’s failure to maintain documentation of key contractual decisions is a violation of the Federal Management
Records Act, 44 U.S.C. § 3101, and the AMS § 5.3.10.
30
   The TSOC project manager denied that he was the project’s COTR and told us that he had never been informed that he
was to serve as COTR. Additionally, the deputy administrator said that TSA allowed many people to work as COTRS
without COTR training.
31
   According to the memorandum and charter, the oversight board’s purpose was to streamline the TSOC’s procurement
process. However, the procurement managers responsible for drafting the memorandum said that their purpose in
creating the oversight board was to shift responsibility for the project to another entity.

                 Irregularities in the Development of the Transportation Security Operations Center           Page 15
                           the same day that the first real estate contracting officer was removed, the
                           deputy administrator signed the memorandum and charter. The memorandum
                           designated the deputy administrator as the chairperson and the chief operating
                           and chief support systems officers as members. Others were to be invited as
                           the board deemed necessary. The charter listed the oversight board’s principal
                           roles, which included:

                               •    Approval of the strategy for construction of the facility, including
                                    requirements, costs, and schedule.

                               •    Approval of the key decisions related to the lease, including changes to
                                    costs, schedule, or requirements.

                               •    Assurance that lease functions are accomplished according to TSA
                                    policy and procedures and other applicable regulations and statutes.

                           Although the oversight board’s charter granted many contracting officer
                           responsibilities to the oversight board, the charter did not specifically relieve
                           the contracting officers of their responsibilities for the real estate and the
                           furniture, fixtures, and equipment contracts.

                           The oversight board first convened on April 10, 2003, and it met at least eight
                           times thereafter. The real estate and the furniture, fixtures, and equipment
                           contracting officers were not invited to any of the meetings. There is
                           disagreement as to whether the acquisitions office director was invited to
                           more than one meeting.32

                           The meetings were held regularly and featured a broad overview by the
                           project manager of the project’s progress, budget, schedule, and risk issues.
                           The project manager determined the topics presented to the oversight board;
                           they tended to be high-level or non-controversial issues. For example, the
                           more than 60 construction change orders, and the decision to purchase
                           $370,000 in art and silk plants were not presented to the board. Of the issues
                           that the project manager presented to the oversight board, almost all were
                           accepted.33 When we asked the project manager whether the oversight board


32
   The acquisition office director and the chief systems support officer said that she was invited to the first meeting but
not to any meetings thereafter; the deputy administrator and the project manager said that the acquisitions office director
attended other meetings.
33
   Despite the fact that the oversight board met at least nine times, the deputy administrator recalled only one instance
when the oversight board rejected a proposed construction plan modification by the project manager. In that instance, the
project manager wanted to install a door between the Sensitive Compartmented Information Facility (SCIF) and the
TSOC operations center. The oversight board rejected the project manager’s proposed modification because if the door
had been installed, the entire TSOC operations center would have had to meet SCIF certification standards, which would
have been cost prohibitive and unnecessary. The intelligence staff also objected to the plan to install the door.

                  Irregularities in the Development of the Transportation Security Operations Center               Page 16
                           modified or disapproved his plans for the project, he said that “[they] gave me
                           a wink and told me to keep going.”

                           The oversight board was created to address procurement managers’ concerns
                           that the project manager was violating procurement policy and regulations. Its
                           charter included ensuring that the project activities were conducted according
                           to procurement policy and regulations. The oversight board was ineffective in
                           that it failed to obtain a complete and accurate understanding of the project
                           manager’s decisions and activities, and did not detect or prevent the project
                           manager from violating procurement policies and regulations.

                           On April 17, 2003, the chief operating officer’s staff director said in an email
                           message to participants in the project that, “[the project manager] is the
                           executive agent/program manager for this project. He is directly responsible to
                           the oversight committee for this entire project (as specifically iterated by [the
                           chief support systems officer] at our oversight meeting last week).34 It is
                           imperative that he be allowed to meet with vendors, contractors, and any other
                           entity . . . .” The email message was in response to another disagreement
                           regarding whether the project manager should initiate discussions with
                           vendors without involving procurement managers.

                           Also in April 2003, the acquisitions office director negotiated what was called
                           a “hybrid” contracting officer authority model with the project manager. The
                           chief administrative officer said that the director of acquisitions agreed to the
                           compromised authority in order to break the “deadlock” between the project
                           manager and the procurement managers. There was no statutory, regulatory,
                           or policy statement authorizing the creation of hybrid contracting officer
                           authority, which, in this instance, released the real estate contracting officer
                           from some of his duties. Under the hybrid solution, the real estate contracting
                           officer signed every pay application that the project manager submitted,
                           without validating or questioning its legitimacy.35 The hybrid authority
                           relinquished the real estate contracting officer’s responsibility to ensure that
                           TSA paid a fair price for work that was acceptable. It obligated the real estate
                           contracting officer to sign the pay applications within hours of receipt to
                           facilitate prompt processing, too. If he were unavailable, the director of
                           acquisitions would sign them instead. Having lost the authority to review
                           requirements, negotiate with contractors, assist with space plans, monitor
                           schedule progress, and validate pay applications, the contracting officer’s sole
                           substantive role in the project was to ensure that purchases were obtained
                           through a competitive process.


34
  The chief systems support officer does not recall making this statement.
35
  Pay applications are the forms used to request the contracting officer to pay an invoice. Typically, the invoice and
back-up documentation are attached to the pay application so that the contracting officer may confirm that the invoice is
legitimate and that the government is obligated to pay it.

                  Irregularities in the Development of the Transportation Security Operations Center              Page 17
                           In June 2003, the real estate contracting officer alerted personnel in the
                           finance office of his concern about project expenses. Almost all project funds
                           had been obligated, and if any change orders were issued, the real estate
                           contracting officer warned that additional funding would be required. In
                           addressing this matter, one finance staff member wrote of the project: “As far
                           as I can tell, there are no milestones set . . . . Those are the kinds of questions
                           you can’t get answered in any kind of concrete way.” The TSA finance office
                           had limited insight into this project. Senior management had established the
                           project’s budget, and the finance office employees who we interviewed could
                           not locate documentation justifying the budget or explaining how it was
                           determined. In addition, the finance office was not provided with a
                           construction schedule to measure accrued costs against progress. It was not
                           until August 2003, when the project manager submitted a purchase request36
                           for $574,042 of additional funding that the finance office and the real estate
                           contracting officer learned that the project manager had negotiated and
                           approved construction change orders without notifying them. 37

                           The AMS allows only contracting officers to enter into contracts, agreements,
                           and other transactions on behalf of the organization.38 The project manager
                           violated the AMS by negotiating directly with vendors and by committing
                           TSA to financial agreements with the construction management company. The
                           $574,042 purchase request described the need for the additional funding as
                           “approved construction change orders,” but did not include any supporting
                           documentation detailing the change orders. The construction management
                           company provided us with a series of spreadsheets that listed the more than 60
                           change orders. A spreadsheet dated September 8, 2003, which is closest in
                           time to the purchase request, shows change orders that total $542,586. The
                           difference between the purchase request funding for change orders and the
                           total shown on the spreadsheet was $31,456. We have been unable to
                           determine what changes this amount represented. The most recent spreadsheet
                           that we obtained is dated October 2, 2003, and lists $548,637 in change
                           orders, leaving approximately $25,000 in unaccounted funds.

                           Subsequent to the project’s conclusion in November 2003, TSA issued a
                           management directive providing policy and procedures for the acquisition and
                           renovation of office space. On April 6, 2004, TSA’s office of acquisition
                           issued an Internal Guidance and Procedure Memorandum 306 that establishes
                           the acquisition office’s concept of operations and lists contracting officers’
                           roles and responsibilities. Because the provisions of the directive and the
                           memorandum were not in place during the project, TSA cannot be held to

36
   A purchase request is a document used to set aside government funds for a specific purchase. The funds are drawn
against it through submission of pay applications.
37
   The change orders brought the project over budget, requiring additional funds to be secured for project tasks that had
already been completed.
38
   AMS § 3.1.4.

                  Irregularities in the Development of the Transportation Security Operations Center               Page 18
                           them. However, they do provide a point of contrast. The duties outlined in the
                           detailed documents reflect AMS policy and standard federal acquisition
                           procedures. Despite the procurement managers’ attempts to impose many of
                           the procedures listed in the documents, the deputy administrator and chief
                           operating officer allowed the project manager to ignore them.

                           Senior management’s refusal to support the procurement managers’ authority
                           and their determination to complete the construction within a self-imposed
                           deadline contributed to numerous instances of blatant disregard for proper
                           procurement processes. This disregard for procurement rules and procedures
                           created a culture of disrespect for those rules. As a result, additional
                           violations, which are described below, occurred.

Acquisition of Art, Plants, and Miscellaneous Office Supplies
                           In June 2003, approximately one month before the TSOC/SOCD building
                           opened, the project manager decided to decorate the facility. The project
                           manager and the facility operations officer paid $500,000 to a tool company
                           for artwork, decorative items, and miscellaneous supplies. The agreement to
                           purchase the items was never committed to writing. The facility operations
                           officer insisted that the tool company submit its invoice before the purchases
                           had been finalized. The tool company used its estimated costs to develop the
                           $500,000 total. TSA was unable to provide us with either the estimated
                           accounting or the final accounting of the items purchased. Upon our request,
                           the tool company provided us with its final list of products delivered under the
                           agreement and information for determining the actual costs for each.39
                           Following our line-by-line accounting of the more than 70 items purchased,
                           we determined the actual costs of the items purchased, as follows:

                               •    $252,392 for artwork.

                               •    $29,032 for the services of an art consultant and her assistant.

                               •    $30,085 for decorative silk plants.

                               •    $13,861 for miscellaneous office supplies.

                           The agreement included a 20% mark-up, which we calculated to be $65,074,40
                           and a credit of $26,243 for future purchases.41 These actual costs totaled

39
   The vendor gave us the invoices it received from the providers of goods and services. We reconciled the invoices’
products and costs with the vendor’s final list of products, such as artwork, plants, and miscellaneous items, to determine
the actual costs for each product or service provided under the agreement.
40
   We had to determine the terms of the oral agreement from the parties’ recollections during our interviews. The facility
operations officer told us that the agreement between the parties was that the vendor would pass the direct costs of the

                  Irregularities in the Development of the Transportation Security Operations Center               Page 19
                          $414,687. The remaining $83,313, which is the difference between the tool
                          company’s estimated and actual costs, was an overcharge. Neither the tool
                          company nor TSA reconciled the final costs with the invoiced estimated costs.
                          Accordingly, the vendor received an $83,313 overpayment.

                          The purchase of approximately $370,000 for art and silk plants to decorate an
                          office closed to the public and accommodating approximately 79 federal
                          employees was excessive and wasteful.42 Furthermore, the $26,243 credit
                          allowed purchases that did not require approval or tracking. Establishing such
                          a credit violates a federal statute prohibiting advance payments.43 The $83,313
                          overcharge is a violation of the same statute, which bans payments exceeding
                          the value of the article purchased.44

                          When a federal entity seeks to decorate new office space, it must devise a plan
                          for decorating the building, which should be approved by the agency.45 The
                          AMS rules and federal regulations provide that only contracting officers
                          should enter into agreements and contracts46 and that those agreements should
                          be documented in writing.47

                          The project manager did not form a plan. Instead, without approval, he
                          decided in June that the building should have art on the walls for its July
                          opening. He asked the facility operations officer to obtain the art and purchase
                          it using the real estate construction funding. The facility operations officer
                          said that time constraints did not allow for the competitive bidding process.
                          He spoke with one vendor, but disliked the initial price quoted. He then
                          contacted a former business associate, the owner of a tool company, which
                          became the “vendor.” Never had the tool company offered an interior
                          decorating or art supply line of business before. Yet, it agreed to select,
                          purchase, and install the art and plants for the TSOC project. The agreement
                          was never documented. We had to rely, therefore, on the recollections and
                          representations of the facility operations officer and the tool company, which
                          varied. Moreover, the project manager and facility operations officer did not


art, silk plants, and miscellaneous items to TSA. The tool company would pay the shipping costs and charge a mark-up
fee of 30%. The tool company’s attorney told us that the markup fee was 20% based on estimated costs and that the tool
company did not charge for labor, overhead, or expenses. He also characterized the agreement as a fixed price contract
based on estimated costs.
41
   Eventually, the TSOC expended the credit with purchases of office supplies and furniture.
42
   This figure comprises 49 FAMS and 30 TSOC employees.
43
   31 U.S.C § 3324. Advance payments for certain contract financing are permissible under 41 U.S.C. § 255, which
permits such payments when they follow certain procedures. However, as far as we can determine, the facility operations
officer did not follow the law.
44
   Ibid.
45
   41 C.F.R. § 101-26.103-2 (2003).
46
   AMS § 3.1.4.
47
   31 U.S.C. § 1501 (a)(1).

                 Irregularities in the Development of the Transportation Security Operations Center            Page 20
        inform the real estate contracting officer about the agreement to purchase
        decorative items.

        Before all the art was purchased and at the facility operations officer’s urging,
        the tool company submitted an initial invoice for project “enhancements” of
        $473,757, which was based on the tool company’s estimate of costs. The
        facility operations officer asked the tool company to withdraw the invoice and
        instead issue three, which together would total $500,000. The facility
        operations officer instructed the tool company to submit the invoices to the
        construction management company and label the purchases as “equipment and
        tools.” Labeling the purchases as “equipment and tools” would make them
        appear to be within the scope of the real estate contract when in fact they were
        outside its scope. The facility operations officer also instructed the vendor that
        the $26,243 difference was to be treated as a credit from which TSA could
        order additional, unspecified items.

        Representatives from the tool company said the tool company had to
        “manually construct” the three new invoices because its accounting system
        did not have the capability to change invoices after they had been issued. It
        submitted the three new invoices to the construction management company in
        the amounts of $159,000, $175,000, and $166,000 for a total of $500,000.
        Instead of following the facility operations officer’s instruction, the invoices
        referred to the purchases as “furniture, fixtures, and equipment.”

        The construction management company initially resisted accepting the
        invoices and incorporating them into its bill to TSA. Under pressure from the
        project manager, however, it added the charges to its list of change orders.
        Although the project manager and construction company completed
        paperwork documenting each of the more than 60 other changes, change order
        paperwork for the change order relating to the $500,000 purchase was not
        completed. Upon advice from legal counsel, the construction management
        company did not follow the project manager’s suggestion to add its own
        mark-up to the three invoices, due to the irregularity of the transaction.

        The artwork arrived in separate shipments. The pieces were not inventoried,
        and no one confirmed that all of the pieces that had been ordered were
        delivered. While it appears that the tool company shipped the complete order,
        we had difficulty locating all of the art listed on the invoice. Much of it had
        been removed, especially in the offices, so that the occupants could install
        their own photographs, art, and memorabilia. In addition, TSA could not give
        us any records of the purchase, other than the purchase request for change
        orders submitted by the project manager. TSA did not have copies of the tool
        company’s invoices, the shipping documents, supplier receipts, cost estimates,



Irregularities in the Development of the Transportation Security Operations Center   Page 21
                          or email messages documenting purchase selections. We recovered those
                          documents from the tool company.48

                          We found no evidence that TSA independently evaluated the reasonableness
                          of the tool company’s price, questioned the suitability of using a tool company
                          to buy art, or ensured that funding was available for this obligation.

Use of Purchase Cards
                          The federal purchase card program was initiated in 1985 to streamline
                          procurement of small dollar purchases. In 1994, the program was simplified to
                          exempt “micro-purchases” of $2,500 or less from the general requirement for
                          competition and other procurement rules, instead allowing them to be
                          obtained with a P-card. TSA adopted the P-card program and produced a
                          manual detailing the policies and procedures for P-card use.49 The P-card
                          manual permits the purchase of low cost supplies, such as cables, computer
                          keyboards, cell phone batteries, and other inexpensive items.

                          In August 2003, TSA issued P-cards to two project members: one to the
                          facility operations officer, who had an initial $35,000 monthly purchase limit;
                          and the other to a TSOC employee who had a $10,000 monthly limit.50 The
                          project manager was the approving official for both. The two P-card holders
                          purchased supplies and other items for the TSOC/SOCD. TSA’s P-card
                          program management detected anomalies in the project’s P-card usage in
                          September 2003. Apparent violations continued in the ensuing months. In
                          November 2003, due to growing concern about possible abuses,
                          P-card program officials referred the project’s P-card problems to OIAPR.
                          OIAPR reviewed the situation and in May 2004 submitted its findings to our
                          office for review.

                          General P-card Policy Violations

                          Each P-card holder is monitored by an approving official who is responsible
                          for guarding against P-card abuse, as well as for reporting P-card misuse.51 A
                          TSA P-card holder must receive prior written authorization for a purchase
                          from the approving official and must maintain a log of purchases for monthly
                          review by the approving official. TSA provided a purchase log template to


48
   These omissions in record keeping violated the Federal Records Management Act, which requires government
employees to maintain records of purchases. 44 U.S.C. § 3101.
49
   We relied upon the TSA Purchase Card Manual (2004) for this information because TSA was not able to locate the
2003 manual. We were able to confirm that the rules cited in the 2004 manual were the same as those listed in the 2003
manual.
50
   Both P-card holders’ monthly limits were raised to $50,000 on September 25, 2003.
51
   TSA Purchase Card Manual (2004).

                  Irregularities in the Development of the Transportation Security Operations Center            Page 22
                          P-card holders to assist them in establishing and maintaining the logs. In
                          addition to issuing prior written authorization for each purchase, approving
                          officials are required to review the purchases each month, ensure that the
                          P-card holders maintain their purchase logs, and report any P-card misuse.52

                          The two P-card holders used their P-cards to purchase $136,589 in goods from
                          August through January 2003.53 They did so without obtaining prior
                          authorization from the approving official and without logging their purchases.
                          The approving official did not review their monthly purchases or ensure that
                          they maintained their purchase logs during that period.




52
  Ibid.
53
  The facility operations officer left employment with TSA in October 2003. He used his P-card purchases in August
through September 2003 only.

                 Irregularities in the Development of the Transportation Security Operations Center           Page 23
                             Split Purchases

                             TSA P-card policy prohibits P-card holders from “splitting” purchases, a
                             means for exceeding the $2,500 limit by breaking the purchase cost of an item
                             of equipment, supplies, or services into smaller amounts and invoicing the
                             amounts separately. The prohibition against split purchases was conveyed to
                             the project’s P-card holders in the online P-card training and through the cover
                             letter that accompanied the P-cards.

                             Both P-card holders engaged in split purchases with the tool company that had
                             provided the $500,000 of art, silk plants, and miscellaneous items. The P-card
                             holders not only ordered purchases well in excess of the $2,500 single
                             purchase limit, but also communicated with the tool company to split the
                             purchases so that numerous credit card transactions would be created, each for
                             under $2,500, until the total purchase price was achieved. For example, in
                             regard to one large $47,449 purchase, the tool company sent an email message
                             to both P-card holders asking, “let me know which credit card you want this
                             processed on if the limits are $2,500 per day I will need to hit the card
                             multiple times.” In an email message one week later about the same purchase,
                             the tool company wrote to the facility operations officer, “Your large order
                             total amount $47,449,54 I have ran $22,422 to date with a balance to run of
                             $25,025; I have been running a different amount each time.”

                             Between August 2003 and November 2003, the single purchase amount was
                             exceeded ten times with the tool company splitting the purchases over 58
                             credit card transactions. The total expenditure for the ten split transactions was
                             $121,897, and individual purchase prices ranged from $3,350 to $47,449.
                             With regard to the latter, the cardholder not only exceeded the $2,500 limit,
                             but the $35,000 monthly limit amount, as well.




54
     The original order was for $47,449. Subsequent changes to the order brought its total purchase price to $47,727.

                    Irregularities in the Development of the Transportation Security Operations Center              Page 24
                                                                      Number of
                                    Date          Purchase           Credit Card                     Description
                                                    Price            Transactions
                                      9/2/03        $7,470                 3            Printer toner cartridges
                                      9/9/03       $47,449               22             Furniture, briefcases, coffee pots,
                                                                                        100 TSOC desk kits
                                    9/25/03        $13,000                  6           2 storage containers
                                    9/26/03         $3,350                  2           Projector and bulbs
                                   10/17/03         $5,226                  3           Furniture, projection screen, office
                                                                                        supplies
                                   10/20/03         $6,886                 3            Furniture, general office supplies
                                   10/23/03        $11,672                 5            Printer toner cartridges
                                    11/5/03        $17,850                10            SOCD desk kits, office supplies
                                    11/5/03         $4,165                 2            Office supplies
                                   11/18/03         $3,082                 2            Office supplies
                                      Total:      $120,150                58
                              Table 1: Summary of Split Transactions

                            Inappropriate, Costly Purchases

                            TSA P-card policy prohibits the use of P-cards to purchase personal
                            convenience items, such as coffee pots and televisions, unless the item
                            supports TSA mission-related purposes. Only a P-card program official, the
                            organization point of contract, can make exceptions to that rule after receiving
                            written justification of a bona fide need for the items.55 P-cards may not be
                            used to purchase furniture.56

                            In violation of TSA P-card policy, the two P-card holders used the cards to
                            acquire personal goods, such as 10 coffee pots, 3 leather briefcases, and 52
                            coffee mugs, from the tool company. The P-card holders did not submit the
                            required written justification to the organization point of contract to obtain
                            authorization for these purchases. They also purchased from the tool company
                            chairs, loveseats, tables, lecterns, and armoires with their P-cards, items
                            expressly forbidden by TSA P-card policy.

                            The Federal Property Management Regulations require each agency to
                            establish personal property inventory systems to ensure that the total cost of
                            personal property purchases are kept to a minimum.57 One of the P-card
                            holders ordered, from the tool company, 100 “desk kits,” which cost $359
                            each.58 Because the supplies had to be broken out and assembled into


55
   TSA Purchase Card Manual (2004).
56
   TSA Purchase Card Manual (2004). TSA Real Estate Services Policy Manual, October 23, 2002.
57
   41 C.F.R. § 101-27.101.
58
   The desk kits included various office necessities such as legal pads, pens, a trashcan, and a stapler.

                  Irregularities in the Development of the Transportation Security Operations Center                 Page 25
                          separately boxed kits, they were more costly than simply purchasing the
                          supplies in bulk and storing them in a central location.

                          Vendor Choice

                          From September through January 2003, the P-card holders used their P-cards
                          to purchase $136,589 in supplies from the tool company.59 As with the sale of
                          art, the tool company had never before sold office supplies until the facility
                          operations officer asked it to do so for the facility.60 The facility operations
                          officer told the other P-card holder that the tool company was the preferred
                          vendor for providing the supplies they sought to purchase. The two spent
                          $3,096 on their P-cards in August 2003; $2,381 of that amount, or 77%, went
                          to purchases from the tool company. In September, $77,641 of the $95,398, or
                          81%, of their total P-card expenditures went to the tool company; 98% of the
                          money spent on their P-cards went to the tool company in October. In
                          November 2003, 83% of the P-card expenditures went to the tool company.
                          The P-card program office detected split and improper purchases from the tool
                          company in December 2003 and spoke with P-card holder about them. The
                          percentage of money directed to the tool company on P-card purchases
                          declined in December to 24%, and in January it dropped to 7%. The tool
                          company provided us with some of the wholesalers’ invoices for the TSOC
                          supplies. We compared the costs to the tool company as reflected in those
                          invoices with the costs the tool company charged TSA to determine the
                          vendor’s mark-up. The mark-up the tool company received for those
                          purchases varied from 22% to 78%.

                          P-card holders’ purchases for this period are summarized in Table 2, below:

                                                                 Purchase
                                                                                      Total              Percentage of
                                             Purchase           Amount with
                                                                                   Purchase            Purchase Amount
                              Month         Amount with          All Other
                                                                                  Amount for            Directed to Tool
                                             Tool Co.            Vendors
                                                                                  All Vendors                 Co.
                               August         $2,381                  $715            $3,096                  77%
                            September        $77,641               $17,757           $95,398                  81%
                              October        $27,384                  $651           $28,035                  98%
                            November         $26,536                $5,296           $31,832                  83%
                            December          $1,907                $6,019            $7,926                  24%
                              January          $740                 $9,173            $9,913                   7%
                                Total:      $136,589               $39,610         $176,200                   78%
                          Table 2: P-card Purchase Summary


59
   The combined total of artwork, decorative furnishings, and office supplies bought from the tool company was
$620,344.
60
   The tool company eventually created a separate company that offers office supplies through a GSA schedule. The
business has grown and serves more than 80 federal, state, and private customers. The art supply line of business was
closed after the TSOC project was completed.

                  Irregularities in the Development of the Transportation Security Operations Center               Page 26
                          P-card Certification Impropriety

                          The two P-card holders may not have taken the mandatory training and the
                          test necessary to obtain a P-card.61 A TSA employee reported that a contractor
                          working at the TSOC took the test for the two P-card holders in violation of
                          TSA policy. When questioned about the allegation, one of the P-card holders
                          confirmed that he did not take the test; the other cardholder said that a
                          contractor entered the online test site at the computer while the P-card holder
                          told him which answers to enter. The contractor confirmed the report of the
                          latter P-card holder and said that he entered the answers provided to him by
                          the former P-card holder. Given the frequency and severity of the P-card
                          infractions, it appears that either the P-card holders did not know the P-card
                          rules and passed the P-card test by wrongfully receiving assistance, or they
                          knew the rules and willfully violated them.

Questions of Impartiality
                          The TSOC facility operations officer had a prior business and personal
                          relationship with the owners of the tool company from which he made the art
                          and silk plant purchases, as well as most of the P-card acquisitions. The tool
                          company’s owners had sold merchandise at a store that the facility operations
                          officer had managed before he began working for TSA at the TSOC.
                          Additionally, in September 2002, the tool company owners had offered this
                          person a position with its subsidiary as vice president of global sales. He
                          declined the position. In April 2003, he secured the TSOC facility operations
                          officer position. On the questionnaire for national security positions, a form
                          that federal employees must complete, he listed one of the tool company’s
                          owners as a personal reference.

                          Federal law and the TSA Guide to Major Ethics Rules direct employees to act
                          impartially and not give preferential treatment to anyone or any
                          organization.62 Additionally, employees may not use their public office for
                          private gain.63 Employees are instructed to avoid any actions that would create
                          the appearance that they are violating legal or ethical standards.64

                          In June 2003, within three months of being hired by TSA, the facility
                          operations officer asked the tool company to supply art, silk plants, and other
                          non-tool related items for the TSOC. Although the tool company successfully
                          provided those items, the decision to contract with them was questionable, in

61
   TSA policy requires prospective P-card holders to undergo a GSA web-based training course and test. Upon successful
completion of the test, a certificate is issued and TSA secures a P-card for the applicant.
62
   Financial Conflicts of Interest, 5 C.F.R. § 2635 part D.
63
   Ibid.
64
   Ibid.

                 Irregularities in the Development of the Transportation Security Operations Center           Page 27
                         that they had not offered that line of business in the past. Furthermore, the
                         decision was exacerbated because the tool company was not selected as a
                         result of a competitive bidding process, which calls into question the facility
                         operations officer’s impartiality. Finally, a purchase agreement between TSA
                         and the tool company was not documented, and the facility operations officer
                         instructed the tool company to describe the purchase inaccurately in its
                         invoice. The facility operations officer’s action in that regard suggests that the
                         he attempted to conceal the nature of his dealings with the tool company. The
                         facility operations officer’s decision to use a company that had no history of
                         providing the services sought; his failure to use a competitive bidding process
                         to select a supplier; and, his apparent attempts to conceal certain transactions
                         raise concerns about adherence to his ethical obligations.

                         The facility operations officer’s motivations are further impugned by his
                         actions a few months later. In September, he asked the tool company to
                         expand its line of business to include providing office supplies. He instructed
                         the other P-card holder that the tool company was the provider of choice for
                         office supplies. Throughout September, he and the other TSOC P-card holder
                         used their cards to purchase items prohibited by P-card policy from the tool
                         company, and they engaged in transactions with the tool company to conceal
                         their violations of P-card policy. Sometime in October 2003, the facility
                         operations officer resigned from his TSA position.65 Within a few weeks, he
                         started a new business venture with the owners of the tool company, receiving
                         shares of the new company’s stock and an annual salary increase of
                         approximately $34,000.66

                         The facility operations officer violated TSA rules and federal regulations to
                         avoid the appearance of ethical conflicts, and may have violated the
                         requirements to be impartial and not use his public position for private gain.
                         We have referred this matter to the Department of Justice for consideration of
                         further action.

Facility Enhancements
                         Fitness Center

                         While planning the SOCD, as a component of the FAA, FAMS decided to
                         equip the facility with a fitness center. Subsequently, TSA determined that the
                         TSOC should have a fitness center also. Once it was evident that the
                         organizations would share operational space, FAMS and TSA decided to

65
   TSA did not prepare documentation specifying the facility operations officer’s actual departure date from TSA
employment. TSA was able to confirm that a paycheck was issued to him for the period ending October 30, 2003, but
cannot determine how many days he worked during that pay period.
66
   The new business was incorporated on October 23, 2003.

                 Irregularities in the Development of the Transportation Security Operations Center          Page 28
                             combine fitness centers. Unlike the fitness center project at TSA headquarters,
                             for which an analysis of the requirements was completed and an
                             administrative process was established to guide its development, the project
                             manager did not conduct an adequate analysis or obtain approval to justify
                             building and equipping the TSOC portion of the fitness center. We confirmed
                             that a struggle existed between the procurement managers and the project
                             manager regarding the fitness center. The deputy administrator told us that he
                             had ordered that the fitness center not be equipped. On the other hand, the
                             project manager said that the deputy administrator had supported it. There is
                             no documentation to confirm either account. Despite the concerns of the
                             procurement managers and, perhaps, those of the deputy administrator, a
                             fitness center was built.

                             The TSOC/SOCD exercise facility is 4,250 square feet. Total construction and
                             equipment costs were approximately $350,000. There is an additional monthly
                             charge included in the building rent for towel laundry service. At the time it
                             was constructed and outfitted, 30 TSOC and 49 SOCD employees worked at
                             the facility. Of the 49 SOCD personnel, only a few had position descriptions
                             with a mandatory physical fitness requirement.

                             TSA began construction of a 6,921 square foot fitness center for
                             approximately 2,550 employees at its headquarters building in the fall of
                             2004. The estimated cost to construct and equip the headquarters’ facility is
                             $650,000.67 As shown in Table 3, the headquarters fitness center will serve
                             about 2,480 more staff members than TSOC/SOCD’s fitness center, yet the
                             headquarters facility is only slightly larger. The disparity in the size and
                             potential serviceability of the fitness centers is evident when comparing the
                             ratio of square footage per user. At the headquarters fitness center, if just 15%
                             or about 380 staff used the center simultaneously, each user would have about
                             18 square feet of workout space. However, if all 79 TSOC/SCOD staff used
                             the TSOC facility at the same time, an unlikely scenario, each would have
                             about 54 square feet or approximately three times the workout space.

                                                   # Employees
                               Fitness Center    Fitness Center to    Total Square    Construction/ Exercise
                                   Location       Accommodate            Footage        Equipment Costs
                                 Headquarters          2,550              6,921             $650,000
                                TSOC/SOCD                 79              4,250             $350,000
                             Table 3: TSOC/SOCD and Headquarters Fitness Center Summary

                             Federal agencies may provide fitness centers and programs to their employees
                             as a preventative health service under federal regulations.68 However, both

67
     The headquarters fitness center also will require user fees to support its operations and new equipment needs.
68
     64 Comp. Gen. § 835 (1985).

                     Irregularities in the Development of the Transportation Security Operations Center               Page 29
                         GAO and Office of Personnel Management policy caution that such
                         expenditures should be carefully monitored.69 TSA did not carefully monitor
                         fitness center costs, and in comparison to its headquarters fitness center, the
                         TSOC/SOCD’s costs and size are wasteful.

                         Kitchen Appliances

                         When the project manager and the construction management company were
                         conducting initial planning for the TSOC/SOCD, estimates to develop the
                         property included $9,750 for equipping seven kitchens with the following
                         appliances: five refrigerators, three dishwashers, four microwave ovens, and
                         three ice makers. The plans also included an additional refrigerator,
                         microwave oven, dishwasher, and icemaker for the CAPPS II program. After
                         the initial estimate was developed, the CAPPS II program decided not to
                         locate in the building. The space that was to be dedicated to CAPPS II was not
                         developed, including the associated kitchen space. The project manager
                         decided to purchase an additional five refrigerators, two of which were
                         stainless steel Subzero models that cost more than $3,000 each, one less
                         dishwasher, five additional microwave ovens, and one additional icemaker.
                         The total for the new purchases was $17,853, almost double the original
                         estimate.

                         The project manager strayed from the original construction estimate by
                         increasing the number of appliances, thus doubling the cost, without
                         justification or approval from senior management or the real estate contracting
                         officer. The contracting officer disputed the purchase of some of the
                         appliances, but when rebuffed by the project manager, acceded to him.

                         Federal agencies may provide kitchens for personnel to contribute to the
                         efficiency of the agency’s operations and the health of personnel.70 A recent
                         Comptroller General decision advises that agencies should develop a policy to
                         limit costs, review need for specific equipment, and establish a budget for
                         equipping the kitchens.71 TSA did not have a policy in place when the project
                         manager provided kitchens for the TSOC/SOCD employees. There was no
                         process or documentation indicating that the number and style of appliances
                         and the number of kitchens for approximately 140 federal and contract
                         employees was warranted.

                         Office Space Utilization



69
   70 Comp. Gen. § 190 (B-240371, January 18, 1991); Principles of Federal Appropriations Law, Third Edition (2004),
Chapter 4, p. 4-247-248.
70
   B-302993 Comp. Gen. (June 25, 2004).
71
   Ibid.

                 Irregularities in the Development of the Transportation Security Operations Center          Page 30
                         In December 2002, TSA senior management finalized the TSOC/SOCD space
                         plans without consulting with the contracting officer, in violation of the
                         AMS.72 The plan’s workstation areas and office sizes appeared to be within
                         acceptable government standards. The project manager approved the space
                         plans and never provided the contracting officer with a copy. The first set of
                         working blue prints used to start construction on the facility was delivered in
                         April 2003. After the permit drawings for the project were delivered in May
                         2003, the project manager decided, without authorization from senior
                         management or the contracting officer, to modify the original plans by
                         increasing the office sizes and altering most of the workstation sizes. The cost
                         for construction and design changes was $8,144. The project manager
                         exceeded the scope of his authority by making a unilateral decision to increase
                         the size of workspaces without approval from senior management, and by
                         committing TSA to construction changes, a role that the AMS rules reserve
                         for contracting officers.73

                         The project manager modified all of the offices and many of the workstation
                         sizes to exceed TSA space standards, some by as much as 100%. TSA space
                         standards allow 300 square feet for senior executive offices and 225 feet for
                         executive offices, yet both senior executive and executive offices at the
                         facility are 342 square feet.74 Supervisors in pay bands L, K, and J are
                         authorized to have 120 square foot offices, according to TSA space standards.
                         Those employees occupy offices up to 240 square feet or twice the size
                         authorized by TSA space standards. TSA standards allot workstations of 64
                         square feet to pay bands A through G, non-supervisory pay bands L, K and J,
                         and all contractors. The TSOC workstations vary in size from 48 square feet
                         to 96 square feet, some falling within the standard and some exceeding it.

                         The following table compares TSA standards for workspace sizes and the
                         extent to which the project manager exceeded the standard:

                                                            TSA         Maximum           Space
                                                         Standard        TSOC         Exceeding the   % Exceeding
                                  Space Type                Size           Size         Standard       Standard
                                                          (sq. ft.)      (sq. ft.)       (sq. ft.)
                           Office - Sr. Exec SW01           300            342              42            14%
                           Office - Executive               225            342             117            52%
                           Office - Pay Bands L-K,
                                                            120            240              120          100%
                           Supervisors
                           Workstation - Pay Bands
                           L-K, non-supervisory
                                                             64             96               32          50%
                           Pay Bands A-G,
                           Contractors


72
   AMS § 5.3.2.
73
   AMS Appendix A, Roles and Responsibilities.
74
   TSA provided us with the square footage of the TSOC/SOCD offices and workspaces.

                 Irregularities in the Development of the Transportation Security Operations Center         Page 31
        Table 4: Workspace exceeding TSA Standards

        Additionally, some of the assignments of personnel to TSOC’s workspace
        were questionable or improper. The project manager placed himself in one of
        the 342 square foot offices, although TSA space standards granted his pay
        band position a 120 square foot office. Others are currently placed improperly
        as well. Some non-supervisory pay band K and L employees occupy the 120
        square foot offices when TSA space standards allocate 64 square foot
        workstations to those positions. Similarly, several contract employees should
        have 64 square foot workstations, but occupy offices that are twice as large.
        Two of the four largest offices were developed for the TSA Assistant
        Secretary and the chief operating officer. The permanent offices for those
        positions are located at the TSA headquarters building. Accordingly, two of
        the TSOC’s senior executive offices are unoccupied.

        In addition to increasing the size of offices, the project manager decided to
        provide cable television service and desktop television monitors in 45 of the
        55 TSOC/SOCD offices. The desktop monitors are part of a Unisys
        Information Technology Management Services contract in which TSA rents
        these monitors for three years at a total cost of $63,099. TSA was unable to
        provide any justification or documentation supporting the need for 45 desktop
        television monitors. Without the documentation, we could not find a
        reasonable explanation for the procurement. The number of employees
        receiving cable televisions seems extraordinarily excessive given the adjacent
        command and operations center. Moreover, at the end of three years, the
        televisions belong to the contractor, not to TSA.

        Surge Capacity

        After this report was written in draft, we received comments asserting that the
        enhanced kitchen and office space capacities were justified because the TSOC
        was planned as a crisis management facility that would house, and presumably
        feed, a large contingent of temporary workers responding to a crisis. The
        argument was supported by examples in which the TSOC was used during
        National Special Security Events. However, none of our interviews of TSA
        employees and none of the documents that were provided to us evidence an
        expectation or plan to overbuild the facility to accommodate such workforce
        surges. Contemporary planning or mission documents available to us do not
        indicate that the number of workstations, size of the gym, or the number of
        kitchens and kitchen appliances was determined on the basis of a plan to
        handle a surge capacity. In carefully reviewing documents after the surge
        capacity argument was raised, we found one reference as follows: “Manned
        24/7 by a small cadre, with crisis response cells ‘standing-up’ when




Irregularities in the Development of the Transportation Security Operations Center   Page 32
                           required.” (Emphasis added).75 Later documents, more proximate to the
                           planning and construction of the TSOC, are not more specific. The building
                           plans, 12.16.02 revision, are not informative. While use of the center for
                           continuity of operations, continuity of government, or crisis situation room
                           may have been roughly contemplated, and while it is clear now that the center
                           has extra space that may house a workforce surge, we found no evidence
                           during our review that would relate such plans to the size of the facility and to
                           the amount of what we called its “enhancements.”

Recommendations
                           We recommend that the TSA Assistant Secretary:

                           Recommendation 1: Follow TSA policy, as well as applicable federal
                           regulations, when acquiring real estate and procuring goods and services. The
                           policy and regulations establish procedures to help ensure that funding is
                           spent prudently. Although following the procedures may increase the amount
                           of time necessary to complete purchases, it will protect TSA from wasteful
                           and abusive acts. Specifically, the TSA Assistant Secretary should:

                                a) Ensure that TSA procurement personnel coordinate all procurements
                                   with their TSA customer.

                                b) Ensure that the requirements for all projects are defined, documented,
                                   and followed, so that program objectives are met in the most cost-
                                   effective manner.

                           Recommendation 2: Ensure that all contracting officers and contracting
                           officers’ technical representatives receive training appropriate for those
                           positions.

                           Recommendation 3: Recover the $83,313 overpayment to the tool company
                           and such other sums for which it may have a legal remedy.




75
     TSA Command Center (TSACC) – Operational Concept – Executive Summary, July 23, 2002 version.”

                   Irregularities in the Development of the Transportation Security Operations Center   Page 33
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 34
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 35
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 36
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 37
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 38
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 39
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 40
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 41
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 42
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 43
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 44
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 45
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 46
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 47
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 48
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 49
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 50
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 51
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 52
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 53
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 54
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 55
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 56
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 57
                         Appendix A
                         Management Comments

______________________________________________________________________________________




   Irregularities in the Development of the Transportation Security Operations Center   Page 58
                         Appendix B
                         OIG Evaluation of Management Comments

______________________________________________________________________________________
                         We evaluated TSA’s written comments and made changes to the
                         report where deemed appropriate. Below is a summary of TSA’s
                         written response to our recommendations and our analysis of those
                         comments.

                         TSA Response: TSA generally concurs with our recommendations
                         for corrective actions but disagrees with several significant
                         conclusions in our report. TSA challenges the report’s failure to
                         acknowledge its need to achieve a command and control capability
                         over aviation security incidents as rapidly as possible and the
                         legitimacy of its 90-day construction deadline. Further, TSA
                         asserts that the TSOC possesses a surge capacity that justifies the
                         office space, kitchen, and gym sizes. TSA also questions the
                         report’s implication that procurement officials delegated
                         procurement authority to the project manager and the report’s
                         description of the Oversight Board’s role.

                         OIG Evaluation: It was TSA’s contracting officials who objected
                         to accelerating the build-out schedule. Early concept plans and the
                         later actual construction contract provided for a later possible
                         completion date, which suggests that TSA had some discretion in
                         the matter. As reported, we could not find documentation from the
                         time that addressed the question or stated the case for acceleration.
                         In fact, whether the abuses we described occurred as part of a 90-
                         day, or 120-day, or 180-day schedule, they still remain
                         unacceptable and wasteful. The reason why we discuss the 90-day
                         schedule is because of the effect that determination had on
                         management’s objections to the issues raised by TSA contracting
                         and real estate personnel and, thus, on the autonomy afforded to
                         the project manager.

                         TSA also asserted that the report failed to recognize the surge
                         capacity built into the facility. We have added a discussion of that
                         argument in the main body of the report. We do not dismiss TSA’s
                         argument; certainly it has some support in terms of the facility’s
                         present capacity, but we did not find evidence that it determined
                         the configuration and outfitting of the TSOC at the time those
                         decisions were being made.

                         With respect to the delegation of procurement authority to the
                         project manager, our report recounts that the deputy administrator
                         refused to sign the delegation. However, the director of
                         acquisitions negotiated a “hybrid” contracting officer authority
                         with the project manager, under which the real estate contracting

   Irregularities in the Development of the Transportation Security Operations Center   Page 59
                         Appendix B
                         OIG Evaluation of Management Comments

______________________________________________________________________________________
                         officer maintained the authority to ensure competition for
                         purchases, but abandoned the responsibility to review invoices
                         submitted by the project manager. TSA asserts that the Oversight
                         Board only dealt with higher-level issues and was not expected to
                         review individual change orders or equipment purchases. We
                         understand that the Board was not a planned oversight mechanism;
                         it was created to resolve the disputes arising between the project
                         manager and the contracting and real estate offices – the kind of
                         disputes that did involve change orders and purchases. Had it
                         reviewed such transactions, the wasteful and inappropriate
                         expenditures reported might have been blocked.

                         TSA’s response does not address the substantive issues pointed out
                         in the report regarding “gold plating” of the facility, i.e., the sub-
                         zero refrigerators, furniture, TV monitors, etc., artwork, and other
                         decorative items. In addition, TSA’s assertion that implies
                         misconduct solely by “lower level” employees is incorrect. The
                         decisions to purchase the artwork and other decorative items and to
                         enhance the facility were made by higher-level managers.

                         Recommendation 1: Follow TSA policy, as well as applicable
                         federal regulations, when acquiring real estate and procuring goods
                         and services. The policy and regulations establish procedures to
                         help ensure that funding is spent prudently. Although following the
                         procedures may increase the amount of time necessary to complete
                         purchases, it will protect TSA from wasteful and abusive acts.
                         Specifically, the TSA Assistant Secretary should:

                               a) Ensure that TSA procurement personnel coordinate all
                                  procurements with their TSA customer.

                               b) Ensure that the requirements for all projects are defined,
                                  documented, and followed, so that program objectives are
                                  met in the most cost-effective manner.

                         TSA Response: In the development of the TSOC, the urgency to
                         complete the facility lessened the importance of defined,
                         rationalized, and documented requirements. Since recognizing this
                         deficiency, the Office of Acquisition has been working with
                         program offices to develop performance-based requirements that
                         meet the mission and provide for cost control, competitive
                         processes, and access for socioeconomic programs. Also, TSA
                         noted that, at the time of the TSOC’s development, Office of
                         Acquisition business agreements lacked structure and thought

   Irregularities in the Development of the Transportation Security Operations Center   Page 60
                         Appendix B
                         OIG Evaluation of Management Comments

______________________________________________________________________________________
                         processes based on years of acquisition experience. In addition,
                         TSA’s acquisition function was obscured three layers deep in the
                         Chief Financial Officer organization. TSA recognized that the
                         Office of Acquisition could not coordinate TSA’s acquisition
                         program or enforce acquisition policies and statutory law from that
                         level. Therefore, in the fall of 2004, the office was elevated to the
                         assistant administrator level.

                         OIG Evaluation: The organizational move of the Office of
                         Acquisition can have salutary consequences and the potential for
                         improving the office’s coordination of procurements and oversight
                         of policy and statutes. Based on the strengths of the Office of
                         Acquisition initiatives, this recommendation is resolved, but will
                         remain open until all corrective actions included in TSA’s response
                         have been completed.

                         Recommendation 2: Ensure that all contracting officers and
                         contracting officers’ technical representatives receive training
                         appropriate for those positions.

                         TSA Response: TSA recognized that some acquisition challenges
                         arose due to a lack of knowledge and understanding. To meet those
                         challenges, in October 2003, the Office of Acquisition developed a
                         series of workshops on key acquisition processes. The goal of the
                         workshops was to address the knowledge gaps in key areas of
                         acquisition policy and to share acquisition best practices. Nearly
                         400 TSA employees have participated in these workshops. TSA
                         has comprehensive requirements for its contracting officers and all
                         contract specialist in the 1102 series. Warrant requirements for
                         contracting officers are specified in DHS MD 0740.2. Training and
                         warrants are issued in compliance with the MD. DHS’s Chief
                         Procurement Officer provides certification. In addition, the Office
                         of Acquisition has been working with program managers to ensure
                         that they are trained and certified in accordance with DHS
                         standards established in Management Directive (MD) 0782.

                         OIG Evaluation: The Office of Acquisition appears to have
                         established an aggressive approach to meeting the training needs of
                         the acquisition staff as well as with the program offices that
                         interact with the acquisition staff. This recommendation is
                         resolved-closed.

                         Recommendation 3: Review the physical security requirements
                         for the TSOC/SOCD facility with the TSA security officer to

   Irregularities in the Development of the Transportation Security Operations Center   Page 61
                         Appendix B
                         OIG Evaluation of Management Comments

______________________________________________________________________________________
                         determine security vulnerabilities and address corrective measures.
                         In addition, TSA should establish processes to ensure that physical
                         security concerns for all TSA locations are prioritized and
                         addressed and that funding sources are clearly determined.

                         TSA Response: DHS Office of Security has completed the
                         installation of a complete security system at the TSOC. The
                         building perimeter has been secured with reinforced fencing and all
                         vehicle gates are protected against crash penetration. The TSOC is
                         under full access control.

                         OIG Evaluation: We acknowledge that security measures that
                         were not in effect at the time of our fieldwork have since been
                         implemented. Therefore, we have adjusted the report to reflect the
                         change in the TSOC’s security posture and have withdrawn this
                         recommendation.

                         Recommendation 4: Recover the $83,313 overpayment to the
                         tool company and such other sums for which it may have a legal
                         remedy.

                         TSA Response: TSA in coordination the Office of Counsel has
                         initiated the process to recover the $83,313 overpayment to the tool
                         company and any other overpayments.

                         OIG Evaluation: This recommendation is resolved, but will
                         remain open pending the recovery of the $83,313, as well as any
                         other overpayments made to the tool company.




   Irregularities in the Development of the Transportation Security Operations Center   Page 62
                         Appendix C
                         Recommendations

______________________________________________________________________________________
Recommendations
                         We recommend that the TSA Assistant Secretary:

                         Recommendation 1: Follow TSA policy, as well as applicable
                         federal regulations, when acquiring real estate and procuring goods
                         and services. The policy and regulations establish procedures to
                         help ensure that funding is spent prudently. Although following the
                         procedures may increase the amount of time necessary to complete
                         purchases, it will protect TSA from wasteful and abusive acts.
                         Specifically, the TSA Assistant Secretary should:

                              a) Ensure that TSA procurement personnel coordinate all
                                 procurements with their TSA customer.

                              b) Ensure that the requirements for all projects are defined,
                                 documented, and followed, so that program objectives are
                                 met in the most cost-effective manner.

                         Recommendation 2: Ensure that all contracting officers and
                         contracting officers’ technical representatives receive training
                         appropriate for those positions.

                         Recommendation 3: Recover the $83,313 overpayment to the tool
                         company and such other sums for which it may have a legal
                         remedy.




   Irregularities in the Development of the Transportation Security Operations Center   Page 63
                         Appendix D
                         Major Contributors to the Report

______________________________________________________________________________________

                         Carlton Mann, Chief Inspector, Department of Homeland Security,
                         Office of Inspections and Special Reviews

                         Aya Johnson, Inspector, Department of Homeland Security, Office
                         of Inspections and Special Reviews

                         Elizabeth Kingma, Inspector, Department of Homeland Security,
                         Office of Inspections and Special Reviews




   Irregularities in the Development of the Transportation Security Operations Center   Page 64
                         Appendix E
                         Report Distribution

______________________________________________________________________________________
                    Department of Homeland Security

                         The Honorable Michael Chertoff
                         Secretary

                         Office of General Counsel

                         Mr. John Wood
                         Chief of Staff

                         The Honorable Randy Beardsworth
                         Acting Under Secretary for Border and Transportation Security

                         The Honorable Janet Hale
                         Under Secretary for Management

                         Mr. Gregory Rothwell
                         Chief Procurement Officer

                         Steve Pecinovsky
                         Management OIG Liaison

                         Brian Besanceney
                         Assistant Secretary for Public Affairs


                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         Congressional Oversight and Appropriations Committees, as
                         appropriate




   Irregularities in the Development of the Transportation Security Operations Center   Page 65
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse, or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to Department programs or
operations, call the OIG Hotline at 1-800-323-8603; or write to the
Department of Homeland Security, Washington, DC 20528, Attn: Office of
Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
